OIG Investigative Reports Press Release Columbus, OH., 03/13/2013 - Columbus Man Charged With Fraud Involving Federally Funded Tutoring Program
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
SOUTHERN DISTRCIT OF OHIO
NEWS
COLUMBUS MAN CHARGED WITH FRAUD INVOLVING FEDERALLY FUNDED TUTORING PROGRAM
FOR IMMEDIATE RELEASE
WEDNESDAY, MARCH 13, 2013
http://www.justice.gov/usao/ohs
CONTACT: Fred Alverson
Public Affairs Officer
(614) 469-5715
COLUMBUS – A federal grand jury has indicted Ashkir Ali, 45, of Columbus alleging that he defrauded the U.S. Department of Education's Supplemental Education Services Program by billing the program for tutoring sessions that were never provided.
Carter M. Stewart, United States Attorney for the Southern District of Ohio, Thomas D. Utz, Jr., Special Agent in Charge for the North Central Region of the U.S. Department of Education, Office of Inspector General and Ohio Auditor of State Dave Yost announced the indictment which was unsealed today following Ali's arrest yesterday at his place of business by an agent with the U.S. Department of Education.
"We must protect the integrity of all federally funded programs, especially those established to provide low-income families with educational services that help improve their lives," U.S. Attorney Stewart said.
"By stealing from the SES Program, these 'phantom tutors' are stealing opportunities from the children who need them most," Auditor Yost said.  "Once again, I'm proud of the work we've done with our partners on the federal side to ensure that these education dollars go to children."
Ali owned WAISS Network Technologies and in 2007 signed the first of four annual contracts with Columbus City Schools to provide tutoring for eligible students through the Supplemental Education Services program funded by the U.S. Department of Education. The contract required WAISS to submit student attendance forms with the names of the students, the hours of tutoring services they received, the dates the services were provided and the names of the tutors providing services. Student attendance forms had to be signed by tutors and the student's parents.
Allegations surfaced of possible misconduct by providers of the Supplemental Education Services Program in 2011.  A special audit of the Columbus City School District began in June 2011 after a request was made by Superintendent Gene Harris.  The Ali case is the first prosecution to result from the Auditor of State's special audit, which is ongoing.
The indictment alleges that Ali submitted more than $50,000 in fraudulent claims.  The indictment alleges that Ali submitted forms with forged tutor and parent signatures and submitted written claims for payments which falsely represented the number of tutoring hours WAISS provided.
Ali is charged with two counts of making false statements, each punishable by up to five years in prison, and two counts of aggravated identity theft, each of which is punishable by two years to be served consecutive to any other sentence.
Ali appeared before U.S. Magistrate Judge Norah McCann King on March 12 and was released on his own recognizance. Future court appearances will be scheduled by U.S. District Judge Edmund A. Sargus Jr., who is presiding over the case.
U.S. Attorney Stewart commended the investigation by the U.S. Department of Education Office of Inspector General and State Auditor Yost's Office, as well as Assistant U.S. Attorney Kenneth Affeldt who is representing the United States in this case.
An indictment merely contains allegations, and the defendant is presumed innocent unless proven guilty in a court of law.
Top
Printable view
Last Modified: 03/15/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov